IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 20-827
UNITED STATES, PETITIONER
v.
ZAYN AL-ABIDIN MUHAMMAD HUSAYN, AKA ABU ZUBAYDAH, ET AL.
_______________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_______________
MOTION FOR LEAVE TO DISPENSE WITH
PREPARATION OF A JOINT APPENDIX
_______________
Pursuant to Rules 21 and 26.8 of the Rules of this Court, the
Acting Solicitor General, on behalf of the United States, respectfully seeks leave to dispense with the requirement of a joint appendix in this case.

The question presented in this case is whether

the court of appeals erred when it rejected the United States’
assertion of the state-secrets privilege based on the court’s own
assessment of potential harms to the national security, and required
discovery to proceed further under 28 U.S.C. 1782(a) against former
Central Intelligence Agency (CIA) contractors on matters concerning
alleged clandestine CIA activities.

The opinions of the court of

2
appeals, the orders of the district court, respondents’ application
for a discovery order, and the declarations asserting the state
secrets privilege are included in the appendix to the petition for
a writ of certiorari.

In our view, no other portion of the record

merits special attention such as would warrant the preparation and
expense of a joint appendix, and preparation of a joint appendix
would not materially assist the Court’s consideration of the case.
We are authorized to state that respondents agree that a joint
appendix is not necessary.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
MAY 2021

